No. _______

In The
Supreme Court of the United States
_____________
GERALD LEE GROOMES,
Petitioner,
vs.
ARKANSAS,
Respondent.
______________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF ARKANSAS
______________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
______________

10

OFFICE, OF THE CLERK

ARKANSAS SUPREME COURT
625 MARSHALL STREET
LITTLE ROCK, AF.722OI

JANUARY 23,2020

RE: SUPREME COURT CASE NO. CR-18-1019
GERALD LEE GROOMES V. STATE OF ARKANSAS

THE ARKANSAS SUPREME COURT ISSUED THE FOLLOWTNG ORDER TODAY IN THE
ABOVE STYLED CASE:
..APPELLANT'S PETITION FOR REVIEW IS DENIED."

STACEY PECTOL, CLERK
CC:

BEN MOTAL

CHzuSTOPMR R. WARTHEN, ASSISTANT ATTORNEY GENERAL
GARLAND COUNTY CIRCUIT COURT
(CASE NO. 26CR-17-29s)

A1

OFFICE OF THE CLERK
ARKANSAS COURT OF APPEALS
625 MARSHALL STREET
LITTLE ROCK, AP.722OI

NOVEMBER 20,20I9

RE: COURT OF APPEALS CASE NO. CR-I8-1019
GERALD LEE GROOMES V. STATE OF ARKANSAS

THE ARKANSAS COURT OF APPEALS ISSUED THE FOLLOWING ORDER TODAY IN
THE ABOVE STYLED CASE:

..APPELLANT'S PETITION FOR REHEARING IS DENIED. SWITZER, J., NOT
PARTICIPATING.''

SINCERELY,

STACEY PECTOL, CLERK

CC:

BEN MOTAL
CHRISTOPHER R. WARTHEN, ASSISTANT ATTORNEY GENERAL
GARLAND COUNTY CIRCUIT COURT
(26CR-17-29s)

A2

ARKANSAS COURT OF APPEALS
DIVISION IV
No. CR-18-1019
Opinion Delivered

GERALD LEE GROOMES

September 25, 2019

APPEAL FROM THE GARLAND
APPELLANT COUNTY CIRCUIT COURT
[NO. 26CR-17-295]

V.
STATE OF ARKANSAS

APPELLEE

HONORABLE JOHN HOMER
WRIGHT, JUDGE
AFFIRMED

BRANDON J. HARRISON, Judge
A Garland County Circuit Court jury found Gerald Lee Groomes guilty of twenty
counts of distributing, possessing, or viewing matter depicting sexually explicit conduct
involving a child. On appeal, he argues that some of the images do not depict sexually
explicit conduct, that there was insufficient evidence that he knowingly viewed or possessed
prohibited material, and that his convictions violate constitutional prohibitions on double
jeopardy and cruel and unusual punishment. We affirm.
In May 2017, Groomes was charged with thirty counts of distributing, possessing, or
viewing matter depicting sexually explicit conduct involving a child. 1 At a jury trial in May
2018, Special Agent Michael Hendrix, an employee of the Arkansas Attorney General’s
Office Special Investigations Division, testified that he works in the cybercrimes unit and
primarily investigated child-exploitation cases. He explained that as an investigator, he has

1

The State later nolle prossed ten counts pursuant to a negotiated plea agreement.
1

A3

specialized tools that monitor peer-to-peer networks, which allow the transfer of digital files
over the internet from one computer to another. These tools focus on anyone who offers
to participate in the sharing of child-exploitation material and makes such files public. The
system identifies that user’s IP address, which can provide the user’s geolocation, service
provider, and physical address or name assigned to the account.
Hendrix testified that on 5 October 2016, he connected with IP address 99.43.27.24;
that user was offering to participate in the sharing of child pornography.

Hendrix’s

computer connected with that user’s computer and was able to download 185 files of alleged
child-exploitation material between October 5 and 8 January 2017. On 19 March 2017,
Hendrix connected with the same IP address and downloaded one additional file of alleged
child pornography. At that point, Hendrix assigned the case to another agent to initiate the
legal process of obtaining a subpoena for that user’s service provider and to proceed with
the case.
On cross-examination, Hendrix confirmed that the IP address he had connected with
belonged to Groomes’s home computer. He also said that Groomes used a program called
uTorrent to download and share the images. Hendrix agreed that he cannot tell if a person
opened a file on his or her own computer, but he can show that a file was downloaded and
stored in a shared folder.
Drew Evans testified that in January 2017, he had been a special agent with the
Arkansas Attorney General’s Office and worked in the cybercrimes unit. Evans took over
Hendrix’s investigation and identified approximately 280 files containing suspected child
pornography in the files he received from Hendrix. Evans personally viewed each image
2

A4

and identified it as sexual-exploitation material. He subpoenaed AT&T to obtain the
subscriber information for the IP address; the subscriber was identified as Gerald Groomes.
On 1 March 2017, Evans and Agent Jeremiah Terrell went to Groomes’s address and
confirmed that Groomes had lived there by himself since 2011. On March 19, with
Groomes’s computer still actively sharing child-exploitation material, Evans began drafting
a search warrant. The warrant was executed on March 23, and agents seized Groomes’s
computer and hard drive.

Special Agent Chris Cone, a computer-forensics expert,

examined the evidence at the scene and confirmed the presence of explicit images, so
Groomes was arrested.
Cone testified that agents found a desktop computer that was powered off in
Groomes’s residence. Cone explained that he removed the side panel, disconnected the
power and data-connection cables on the back of the hard drive, and connected them to his
own laptop, which allowed him to read the information contained on the hard drive. He
was able to quickly determine that file-sharing software was installed on the hard drive and
that there were “files of interest to this investigation” on the hard drive. He then stopped
his examination and transported the hard drive to his lab in Little Rock, where he created
an “acquired forensic image,” meaning a copy, of the hard drive so he could work from the
copy without jeopardizing the original. Cone applied a filter that allowed him to view all
the still images or videos containing child pornography regardless of where those images
were stored on the hard drive. Cone also determined that the hard drive’s current Windows
operating system had been installed on 1 March 2017, twenty-two days before the search
warrant was executed, and contained one user-created account named “great.” Cone
3

A5

confirmed the presence of file-sharing software, specifically uTorrent, on Groomes’s
computer, and explained that uTorrent stores data in the user account associated with the
software—in this case the “great” account. Cone described that within each user account
there is a hidden folder named “AppData,” which is
a folder that is just placed there by the operating system and it is typically
hidden from the user’s view. It’s not to say that a user couldn’t make changes
to the system and look at it, but by default it’s hidden.
And within the AppData folder are three additional folders and they’re
labeled “Local, LocalLow, and Roaming.” And in the Roaming folder with
uTorrent, there’s an entry for the uTorrent software. And not just with
uTorrent, but with a lot of programs that you install on a computer, they
make entries into the Local or the Roaming and sometimes LocalLow folder
with an AppData. And it’s just a mechanism for Microsoft Windows to store
settings and features and preferences about that program that’s installed on the
system.
Cone explained that “when a user is interacting with folders and files and they double-click
a folder or they double-click a file and they open it, a link file is created in the—in an area
within AppData for a recent file.”
In this case, Cone identified six files within the uTorrent folder with names that, in
his experience, are consistent with child sexual-abuse material: “LS Star,” “LS Little
Guests,” “LS Land Issue 18 Alien Stars,” “LS Barbie,” “Lolita Magazine 8YO,” and “Flower
Power 7YO.” He said that a “shortcut” link to the uTorrent software had been “pinned”
to the computer’s task bar by the “great” Windows user account. Cone also found names
of video files associated with VLC media-player software in the AppData folder
corresponding to VLC; the most recently played videos included “9YO Girl Masturbate on
Webcam and Piss on Floor,” “Amber 7YO Bondage,” and “PTHC 4YO, 8YO, 11YO
Girls Compilation.”
4

A6

And finally, Cone identified numerous recent web-browser searches, including
“Teen Girls Shower,” “Teen Girls Needing a Cigarette,” and “Pure Nudism Teens 14.”
He confirmed that the “great” user account was associated with Groomes and that he (Cone)
obtained evidence showing Groomes’s computer “interacting with a number of different
files and folders that are or were in the downloads folder with names consistent with child
sexual-abuse material.” He also said that there was some residual information still on the
computer from before the most recent March 1 Windows installation and that the residual
information also showed access to files with names indicative of child sexual-abuse material.
The State introduced and played for the jury a CD containing a representative sample
of the images found on Groomes’s computer, one image for each of the twenty counts of
which Groomes was charged. Cone explained that some of those twenty images were in a
download folder, some were from the recycle bin, and some were deleted files.
After the State rested, the defense moved for a directed verdict on all counts on the
ground that the State had failed to establish that Groomes knowingly possessed the material
in question. The defense argued that
Special Agent Cones [sic] had gotten into the hard drive, not the regular
accessible desktop information that we’re readily use [sic] to, and that there
was [an] app data file that is created by the computer itself. I think that
establishes that even Mr. Groomes wouldn’t have been aware that even
existed once it had been deleted. I think there was testimony that a number
of those items had been deleted, some of those things also residual from the
computer, so that they failed to establish that he knowingly still possessed
those items.
In addition, on counts two, three, four, twelve, and thirteen, the defense moved for a
directed verdict on the ground that the images failed to show a child engaging in any sexually
explicit conduct. The defense asserted, “I think the image itself appears to be either a
5

A7

reinactment [sic] or an actual image from a—like a nudist camp or nudist colony type of
conduct. Nudity in and of itself is not sexual [sic] explicit, so I think they have to establish
that it’s sexually explicit under the definitions established in the jury instructions.” The
court denied the motions, and the defense rested without presenting additional evidence.
Groomes was found guilty on all twenty counts and sentenced to three years’ imprisonment
on each count, to run consecutively.
Arkansas law treats motions for directed verdict as challenges to the sufficiency of the
evidence. Holloway v. State, 2011 Ark. App. 52. When the sufficiency of the evidence is
challenged in a criminal conviction, our court views the evidence in the light most favorable
to the verdict and considers only the evidence supporting it. Adkins v. State, 371 Ark. 159,
264 S.W.3d 523 (2007). We will affirm if the finding of guilt is supported by substantial
evidence. Id. Substantial evidence is evidence of such sufficient force and character that it
will, with reasonable certainty, compel a conclusion one way or the other, without resorting
to speculation or conjecture. Fernandez v. State, 2010 Ark. 148, 362 S.W.3d 905.
I. Sexually Explicit Conduct
A person commits the offense of distributing, possessing, or viewing matter depicting
sexually explicit conduct involving a child if the person knowingly
(1) Receives for the purpose of selling or knowingly sells, procures,
manufactures, gives, provides, lends, trades, mails, delivers, transfers,
publishes, distributes, circulates, disseminates, presents, exhibits, advertises,
offers, or agrees to offer through any means, including the Internet, any
photograph, film, videotape, computer program or file, video game, or any
other reproduction or reconstruction that depicts a child or incorporates the
image of a child engaging in sexually explicit conduct; or
(2) Possesses or views through any means, including on the Internet,
any photograph, film, videotape, computer program or file, computer6

A8

generated image, video game, or any other reproduction that depicts a child
or incorporates the image of a child engaging in sexually explicit conduct.
Ark. Code Ann. § 5-27-602(a) (Repl. 2013). Sexually explicit conduct is defined as actual
or simulated sexual intercourse, deviate sexual activity, bestiality, masturbation,
sadomasochistic abuse for the purpose of sexual stimulation, or lewd exhibition of the
genitals or pubic area of any person or breast of a female. Ark. Code Ann. § 5-27-601(15).
Whether an image constitutes a “lewd exhibition” is a factual question for the jury.
Cummings v. State, 353 Ark. 618, 110 S.W.3d 272 (2003). Our supreme court has noted
that “lewd” is a common word with an ordinary meaning and that Black’s Law Dictionary
defines “lewd” as “obscene or indecent; tending to moral impurity or wantonness.” Id. at
628–29, 110 S.W.3d at 278 (citing Gabrion v. State, 73 Ark. App. 170, 42 S.W.3d 572
(2001)).
Groomes contends that images two, three, four, twelve, and thirteen cannot fit any
of the definitions of sexually explicit conduct listed above except possibly lewd exhibition.
Relying heavily on a Massachusetts Supreme Court case, Commonwealth v. Rex, 11 N.E.3d
1060 (Mass. 2014), Groomes argues that nudity alone is not enough to constitute lewdness,
that there is “nothing remotely sexual, either implicitly or explicitly, about the images,” and
that “[n]othing about the images suggests that they were derived from the sexual
exploitation of the subjects shown therein, such that their possession or viewing would result
in the continuing victimization of those subjects.” Instead, he contends, the images show
nude children in “ordinary non-sexual settings,” such as “two nude females standing with a
volleyball” and “a nude female holding a jump rope.” He concludes that the images are

7

A9

not a “lewd exhibition” and thus do not depict “sexually explicit conduct” as defined in the
statute.
The State responds that based on our supreme court’s holdings in Cummings, supra,
and George v. State, 358 Ark. 269, 189 S.W.3d 28 (2004), sufficient evidence of “lewd
exhibition” existed. In Cummings, which involved nude photographs and videos of a
thirteen-year-old girl that the appellant claimed were for modeling purposes, the supreme
court cited with approval language from a California federal district court: “Because of the
sexual innocence of children, that which constitutes ‘lascivious exhibition’ of a child’s
genitals will be different from that of a ‘lascivious or lewd exhibition’ of an adult’s genitals.”
U.S. v. Dost, 636 F. Supp. 828, 832 (S.D. Cal. 1986), aff’d, 812 F.2d 1239 (9th Cir.), cert.
denied, 484 U.S. 856 (1987). Our supreme court also noted that a determination of lewdness
is ultimately based on whether the combined effect of the visual depiction, including the
age of the minor, setting, attire, pose, and emphasis on the genitals, is designed to elicit a
sexual response in a pedophile viewer. Cummings, 353 Ark. at 629 n.1, 110 S.W.3d at 278
n.1. See also George, 358 Ark. at 282, 189 S.W.3d at 35 (holding that photographs showing
bare breasts of fourteen-year-old girls constituted “lewd exhibition”). The State also asserts
that the context in which the images were found, including the file and video names, “lend
more strength to the assertion that these images were possessed for lewd purposes.” See
Whiteside v. State, 2010 Ark. App. 232, at 4.
Having viewed the challenged images ourselves and having applied our standard of
review to the record as a whole, we hold that sufficient evidence supports the jury’s verdict
that the five images depicted sexually explicit conduct. The Rex case relied on by Groomes
8

A 10

is distinguishable in several ways; first, the photographs at issue in that case were not found
with other photographs that clearly showed sexually explicit conduct. Two, the Rex court
was determining whether probable cause existed to issue an indictment, not whether
sufficient evidence existed to support a jury verdict. And importantly, the Rex court
conducted a de novo review of the challenged pictures to ensure that “the grand jurors
‘have not encroached on expression protected by the First Amendment.’” 11 N.E.3d at
1066 (quoting Commonwealth v. Sullivan, 972 N.E.2d 476, 484 (Mass. App. Ct. 2012)).
While Groomes encourages this court to also perform a de novo review, our standard of
review for sufficiency of the evidence is whether the jury’s verdict is supported by substantial
evidence. Under that standard, we affirm.2
II. Knowingly Viewed or Possessed Prohibited Material
On this point, Groomes argues in part that the State failed to prove that any of the
persons in the twenty images were actual children under seventeen years of age. However,
this is not the argument he made to the circuit court. In his directed-verdict motion, he
argued that some of the images had been deleted and that Groomes had not been aware that
those images still existed once deleted; thus, the State “failed to establish that he knowingly

2

We acknowledge that the George opinion included the statement: “We hold that
these images in appellant’s possession constitute ‘sexually explicit conduct[.]’” 358 Ark. at
282, 189 S.W.3d at 35. However, two sentences later, the court stated, “Therefore, based
upon our holding in Cummings, supra, we conclude that there was sufficient evidence from
which the jury could convict appellant of ‘possessing visual or print medium depicting
sexually explicit conduct[.]’” Id. at 282, 189 S.W.3d at 35–36. Groomes cites the former
statement from George in urging this court to employ a de novo standard of review rather
than deciding whether the jury had sufficient reasons to determine that the challenged
images depicted lewd exhibition as it was instructed to do at trial; however, we remain
convinced that the substantial-evidence standard is the correct standard.
9

A 11

still possessed those items.” Parties are bound by the scope of their directed-verdict motions
and cannot change their grounds on appeal. See Warren v. State, 2019 Ark. App. 33, 567
S.W.3d 105; Harjo v. State, 2017 Ark. App. 337, 522 S.W.3d 839. Thus, we will not address
this portion of Groomes’s argument.
Groomes also argues that the State failed to prove that he actually possessed or viewed
the images:
The uncontroverted evidence showed that the “AppData” folder
where the twenty images were found was automatically created by Mr.
Groomes’ [sic] computer and was not accessible to the average computer user.
There was no evidence that Mr. Groomes was capable of accessing the
“AppData” folder or even knew it existed. Accordingly, there was no
evidence that the twenty images were ever within Mr. Groomes’ [sic]
“dominion and control,” and thus, no evidence that they were in his
possession.
The State counters that Groomes’s computer was “rife with evidence that he possessed and
viewed the 20 images.” The State notes that all the file creations and deletions were
associated with the “great” user account, which was identified as Groomes’s account, and
Groomes’s computer had the uTorrent software installed and pinned to his task bar for easy
access. Within the AppData folder for uTorrent were files with names consistent with
sexually explicit material involving children; other files and folders with similar names were
also found in other locations within his computer. The State denies the files were merely
“hidden away” on Groomes’s computer; instead, they were “sought out, bookmarked,
downloaded, saved, clicked on, viewed, and shared.” Thus, there was no question that
Groomes possessed and viewed the images.
We hold that substantial evidence supports the finding that Groomes possessed the
twenty images. In addition to the reasons cited by the State, we note that according to
10

A 12

Cone’s testimony, a folder is not created within AppData unless and until a user interacts
with a folder or file. That means the AppData files on Groomes’s computer were not created
in a vacuum but instead were the result of his actions of viewing, playing, downloading, or
searching for sexually explicit images involving children.
III. Constitutional Arguments
Finally, Groomes contends that his convictions violate constitutional prohibitions on
double jeopardy and cruel and unusual punishment. However, neither of these arguments
was presented to the circuit court below, so we need not address them. See Brown v. State,
374 Ark. 324, 287 S.W.3d 587 (2008) (holding that an Eighth Amendment argument is not
preserved for appellate review when appellant did not present an objection to his sentence
to the circuit court); State v. Montague, 341 Ark. 144, 14 S.W.3d 867 (2000) (holding that
when the argument of double jeopardy is not raised below, the appellate court cannot
consider that argument on direct appeal).
Affirmed.
GRUBER, C.J., and MURPHY, J., agree.

11

A 13

Groomes v. State, 2019 Ark. App. 408, 586 S.W.3d 196 (Ark. App. 2019)

2019 Ark. App. 408
586 S.W.3d 196

anyone who offers to participate in the
sharing of child-exploitation material and
makes such files public. The system identifies
that user's IP address, which can provide the
user's geolocation, service provider, and
physical address or name assigned to the
account.

Gerald Lee GROOMES, Appellant
v.
STATE of Arkansas, Appellee
No. CR-18-1019

Hendrix testified that on 5 October 2016, he
connected with IP address 99.43.27.24; that
user was offering to participate in the sharing
of child pornography. Hendrix's computer
connected with that user's computer and was
able to download 185 files of alleged childexploitation material between

Court of Appeals of Arkansas,
DIVISION IV.
Opinion Delivered September 25, 2019
Rehearing Denied November 20, 2019
Ben Motal, for appellant.

[586 S.W.3d 198]

Leslie Rutledge, Att'y Gen., by: Chris R.
Warthen, Ass't Att'y Gen., for appellee.

October 5 and 8 January 2017. On 19 March
2017, Hendrix connected with the same IP
address and downloaded one additional file of
alleged child pornography. At that point,
Hendrix assigned the case to another agent to
initiate the legal process of obtaining a
subpoena for that user's service provider and
to proceed with the case.

BRANDON J. HARRISON, Judge
A Garland County Circuit Court jury found
Gerald Lee Groomes guilty of twenty counts
of distributing, possessing, or viewing matter
depicting sexually explicit conduct involving a
child. On appeal, he argues that some of the
images do not depict sexually explicit
conduct, that there was insufficient evidence
that he knowingly viewed or possessed
prohibited material, and that his convictions
violate constitutional prohibitions on double
jeopardy and cruel and unusual punishment.
We affirm.

On cross-examination, Hendrix confirmed
that the IP address he had connected with
belonged to Groomes's home computer. He
also said that Groomes used a program called
uTorrent to download and share the images.
Hendrix agreed that he cannot tell if a person
opened a file on his or her own computer, but
he can show that a file was downloaded and
stored in a shared folder.

In May 2017, Groomes was charged with
thirty counts of distributing, possessing, or
viewing matter depicting sexually explicit
conduct involving a child.1 At a jury trial in
May 2018, Special Agent Michael Hendrix, an
employee of the Arkansas Attorney General's
Office Special Investigations Division,
testified that he works in the cybercrimes unit
and primarily investigated child-exploitation
cases. He explained that as an investigator, he
has specialized tools that monitor peer-topeer networks, which allow the transfer of
digital files over the internet from one
computer to another. These tools focus on

Drew Evans testified that in January 2017, he
had been a special agent with the Arkansas
Attorney General's Office and worked in the
cybercrimes unit. Evans took over Hendrix's
investigation and identified approximately
280 files containing suspected child
pornography in the files he received from
Hendrix. Evans personally viewed each image
and identified it as sexual-exploitation
material. He subpoenaed AT & T to obtain the
subscriber information for the IP address; the
subscriber was identified as Gerald Groomes.
-1-

A 14

Groomes v. State, 2019 Ark. App. 408, 586 S.W.3d 196 (Ark. App. 2019)

On 1 March 2017, Evans and Agent Jeremiah
Terrell went to Groomes's address and
confirmed that Groomes had lived there by
himself since 2011. On March 19, with
Groomes's computer still actively sharing
child-exploitation material, Evans began
drafting a search warrant. The warrant was
executed on March 23, and agents seized
Groomes's computer and hard drive. Special
Agent Chris Cone, a computer-forensics
expert, examined the evidence at the scene
and confirmed the presence of explicit
images, so Groomes was arrested.

a folder that is just placed there
by the operating system and it is
typically hidden from the user's
view. It's not to say that a user
couldn't make changes to the
system and look at it, but by
default
it's
hidden.
And within the AppData folder
are three additional folders and
they're
labeled
"Local,
LocalLow, and Roaming." And
in the Roaming folder with
uTorrent,

Cone testified that agents found a desktop
computer that was powered off in Groomes's
residence. Cone explained that he removed
the side panel, disconnected the power and
data-connection cables on the back of the
hard drive, and connected them to his own
laptop, which allowed him to read the
information contained on the hard drive. He
was able to quickly determine that filesharing software was installed on the hard
drive and that there were "files of interest to
this investigation" on the hard drive. He then
stopped his examination and transported the
hard drive to his lab in Little Rock, where he
created an "acquired forensic image,"
meaning a copy, of the hard drive so he could
work from the copy without jeopardizing the
original. Cone applied a filter that allowed
him to view all the still images or videos
containing child pornography regardless of
where those images were stored on the hard
drive. Cone also determined that the hard
drive's current Windows operating system
had been installed on 1 March 2017, twentytwo days before the search warrant was
executed, and contained one user-created
account named "great." Cone confirmed the
presence of file-sharing software, specifically
uTorrent, on Groomes's computer, and
explained that uTorrent stores data in the
user account associated with the software—in
this case the "great" account. Cone described
that within each user account there is a
hidden folder named "AppData," which is

[586 S.W.3d 199]
there's an entry for the uTorrent
software. And not just with
uTorrent, but with a lot of
programs that you install on a
computer, they make entries
into the Local or the Roaming
and sometimes LocalLow folder
with an AppData. And it's just a
mechanism
for
Microsoft
Windows to store settings and
features and preferences about
that program that's installed on
the system.
Cone explained that "when a user is
interacting with folders and files and they
double-click a folder or they double-click a
file and they open it, a link file is created in
the—in an area within AppData for a recent
file."
In this case, Cone identified six files within
the uTorrent folder with names that, in his
experience, are consistent with child sexualabuse material: "LS Star," "LS Little Guests,"
"LS Land Issue 18 Alien Stars," "LS Barbie,"
"Lolita Magazine 8YO," and "Flower Power
7YO." He said that a "shortcut" link to the
uTorrent software had been "pinned" to the
computer's task bar by the "great" Windows
user account. Cone also found names of video
files associated with VLC media-player
-2-

A 15

Groomes v. State, 2019 Ark. App. 408, 586 S.W.3d 196 (Ark. App. 2019)

software in the AppData folder corresponding
to VLC; the most recently played videos
included "9YO Girl Masturbate on Webcam
and Piss on Floor," "Amber 7YO Bondage,"
and "PTHC 4YO, 8YO, 11YO Girls
Compilation."

aware that even existed once it
had been deleted. I think there
was testimony that a number of
those items had been deleted,
some of those things also
residual from the computer, so
that they failed to establish that
he knowingly still possessed
those items.

And finally, Cone identified numerous recent
web-browser searches, including "Teen Girls
Shower," "Teen Girls Needing a Cigarette,"
and "Pure Nudism Teens 14." He confirmed
that the "great" user account was associated
with Groomes and that he (Cone) obtained
evidence showing Groomes's computer
"interacting with a number of different files
and folders that are or were in the downloads
folder with names consistent with child
sexual-abuse material." He also said that
there was some residual information still on
the computer from before the most recent
March 1 Windows installation and that the
residual information also showed access to
files with names indicative of child sexualabuse material.

In addition, on counts two, three, four,
twelve, and thirteen, the defense moved for a
directed verdict on the ground that the
images failed to show a child engaging in any
sexually explicit conduct. The defense
asserted, "I think the image itself appears to
be either a reinactment [sic] or an actual
image from a—like a nudist camp or nudist
colony type of conduct. Nudity in and of itself
is not sexual [sic] explicit, so I think they have
to establish
[586 S.W.3d 200]
that it's sexually explicit under the definitions
established in the jury instructions." The
court denied the motions, and the defense
rested
without
presenting
additional
evidence. Groomes was found guilty on all
twenty counts and sentenced to three years'
imprisonment on each count, to run
consecutively.

The State introduced and played for the jury a
CD containing a representative sample of the
images found on Groomes's computer, one
image for each of the twenty counts of which
Groomes was charged. Cone explained that
some of those twenty images were in a
download folder, some were from the recycle
bin, and some were deleted files.

Arkansas law treats motions for directed
verdict as challenges to the sufficiency of the
evidence. Holloway v. State , 2011 Ark. App.
52, 2011 WL 240744. When the sufficiency of
the evidence is challenged in a criminal
conviction, our court views the evidence in
the light most favorable to the verdict and
considers only the evidence supporting it.
Adkins v. State , 371 Ark. 159, 264 S.W.3d 523
(2007). We will affirm if the finding of guilt is
supported by substantial evidence. Id.
Substantial evidence is evidence of such
sufficient force and character that it will, with
reasonable certainty, compel a conclusion one
way or the other, without resorting to

After the State rested, the defense moved for a
directed verdict on all counts on the ground
that the State had failed to establish that
Groomes knowingly possessed the material in
question. The defense argued that
Special Agent Cones [sic] had
gotten into the hard drive, not
the regular accessible desktop
information that we're readily
use [sic] to, and that there was
[an] app data file that is created
by the computer itself. I think
that establishes that even Mr.
Groomes wouldn't have been
-3-

A 16

Groomes v. State, 2019 Ark. App. 408, 586 S.W.3d 196 (Ark. App. 2019)

speculation or conjecture. Fernandez v. State
, 2010 Ark. 148, 362 S.W.3d 905.

Cummings v. State , 353 Ark. 618, 110 S.W.3d
272 (2003). Our supreme court has noted
that "lewd" is a common word with an
ordinary meaning and that Black's Law
Dictionary defines "lewd" as "obscene or
indecent; tending to moral impurity or
wantonness." Id. at 628–29, 110 S.W.3d at
278 (citing Gabrion v. State , 73 Ark. App.
170, 42 S.W.3d 572 (2001) ).

I. Sexually Explicit Conduct
A person commits the offense of distributing,
possessing, or viewing matter depicting
sexually explicit conduct involving a child if
the person knowingly
(1) Receives for the purpose of
selling or knowingly sells,
procures, manufactures, gives,
provides, lends, trades, mails,
delivers, transfers, publishes,
distributes,
circulates,
disseminates, presents, exhibits,
advertises, offers, or agrees to
offer through any means,
including the Internet, any
photograph, film, videotape,
computer program or file, video
game, or any other reproduction
or reconstruction that depicts a
child or incorporates the image
of a child engaging in sexually
explicit
conduct;
or

Groomes contends that images two, three,
four, twelve, and thirteen cannot fit any of the
definitions of sexually explicit conduct listed
above except possibly lewd exhibition.
Relying heavily on a Massachusetts Supreme
Court case, Commonwealth v. Rex , 469
Mass. 36, 11 N.E.3d 1060 (2014), Groomes
argues that nudity alone is not enough to
constitute lewdness, that there is "nothing
remotely sexual, either implicitly or explicitly,
about the images," and that "[n]othing about
the images suggests that they were derived
from the sexual exploitation of the subjects
shown therein, such that their possession or
viewing would result in the continuing
victimization of those subjects." Instead, he
contends, the images show nude children in
"ordinary non-sexual settings," such as

(2) Possesses or views through
any means, including on the
Internet, any photograph, film,
videotape, computer program or
file, computer-generated image,
video game, or any other
reproduction that depicts a
child or incorporates the image
of a child engaging in sexually
explicit conduct.

[586 S.W.3d 201]
"two nude females standing with a volleyball"
and "a nude female holding a jump rope." He
concludes that the images are not a "lewd
exhibition" and thus do not depict "sexually
explicit conduct" as defined in the statute.
The State responds that based on our
supreme court's holdings in Cummings ,
supra , and George v. State , 358 Ark. 269,
189 S.W.3d 28 (2004), sufficient evidence of
"lewd exhibition" existed. In Cummings ,
which involved nude photographs and videos
of a thirteen-year-old girl that the appellant
claimed were for modeling purposes, the
supreme court cited with approval language
from a California federal district court:
"Because of the sexual innocence of children,
that which constitutes ‘lascivious exhibition’

Ark. Code Ann. § 5-27-602(a) (Repl. 2013).
Sexually explicit conduct is defined as actual
or simulated sexual intercourse, deviate
sexual activity, bestiality, masturbation,
sadomasochistic abuse for the purpose of
sexual stimulation, or lewd exhibition of the
genitals or pubic area of any person or breast
of a female. Ark. Code Ann. § 5-27-601(15).
Whether an image constitutes a "lewd
exhibition" is a factual question for the jury.
-4-

A 17

Groomes v. State, 2019 Ark. App. 408, 586 S.W.3d 196 (Ark. App. 2019)

of a child's genitals will be different from that
of a ‘lascivious or lewd exhibition’ of an
adult's genitals." U.S. v. Dost , 636 F. Supp.
828, 832 (S.D. Cal. 1986), aff'd , 812 F.2d
1239 (9th Cir.), cert. denied , 484 U.S. 856,
108 S.Ct. 164, 98 L.Ed.2d 118 (1987). Our
supreme
court
also
noted
that
a
determination of lewdness is ultimately based
on whether the combined effect of the visual
depiction, including the age of the minor,
setting, attire, pose, and emphasis on the
genitals, is designed to elicit a sexual response
in a pedophile viewer. Cummings , 353 Ark.
at 629 n.1, 110 S.W.3d at 278 n.1. See also
George , 358 Ark. at 282, 189 S.W.3d at 35
(holding that photographs showing bare
breasts of fourteen-year-old girls constituted
"lewd exhibition"). The State also asserts that
the context in which the images were found,
including the file and video names, "lend
more strength to the assertion that these
images were possessed for lewd purposes."
See Whiteside v. State , 2010 Ark. App. 232,
at 4, 2010 WL 816185.

supported by substantial evidence. Under that
standard, we affirm.2
II. Knowingly Viewed
Prohibited Material

or

Possessed

On this point, Groomes argues in part that the
State failed to prove that any
[586 S.W.3d 202]
of the persons in the twenty images were
actual children under seventeen years of age.
However, this is not the argument he made to
the circuit court. In his directed-verdict
motion, he argued that some of the images
had been deleted and that Groomes had not
been aware that those images still existed
once deleted; thus, the State "failed to
establish that he knowingly still possessed
those items." Parties are bound by the scope
of their directed-verdict motions and cannot
change their grounds on appeal. See Warren
v. State , 2019 Ark. App. 33, 567 S.W.3d 105 ;
Harjo v. State , 2017 Ark. App. 337, 522
S.W.3d 839. Thus, we will not address this
portion of Groomes's argument.

Having viewed the challenged images
ourselves and having applied our standard of
review to the record as a whole, we hold that
sufficient evidence supports the jury's verdict
that the five images depicted sexually explicit
conduct. The Rex case relied on by Groomes
is distinguishable in several ways; first, the
photographs at issue in that case were not
found with other photographs that clearly
showed sexually explicit conduct. Two, the
Rex court was determining whether probable
cause existed to issue an indictment, not
whether sufficient evidence existed to support
a jury verdict. And importantly, the Rex court
conducted a de novo review of the challenged
pictures to ensure that "the grand jurors ‘have
not encroached on expression protected by
the First Amendment.’ " 11 N.E.3d at 1066
(quoting Commonwealth v. Sullivan , 82
Mass.App.Ct. 293, 972 N.E.2d 476, 484
(2012) ). While Groomes encourages this
court to also perform a de novo review, our
standard of review for sufficiency of the
evidence is whether the jury's verdict is

Groomes also argues that the State failed to
prove that he actually possessed or viewed the
images:
The uncontroverted evidence
showed that the "AppData"
folder where the twenty images
were found was automatically
created by Mr. Groomes' [sic]
computer
and
was
not
accessible to the average
computer user. There was no
evidence that Mr. Groomes was
capable
of
accessing
the
"AppData" folder or even knew
it existed. Accordingly, there
was no evidence that the twenty
images were ever within Mr.
Groomes' [sic] "dominion and
control," and thus, no evidence
that they were in his possession.
-5-

A 18

Groomes v. State, 2019 Ark. App. 408, 586 S.W.3d 196 (Ark. App. 2019)

The State counters that Groomes's computer
was "rife with evidence that he possessed and
viewed the 20 images." The State notes that
all the file creations and deletions were
associated with the "great" user account,
which was identified as Groomes's account,
and Groomes's computer had the uTorrent
software installed and pinned to his task bar
for easy access. Within the AppData folder for
uTorrent were files with names consistent
with sexually explicit material involving
children; other files and folders with similar
names were also found in other locations
within his computer. The State denies the
files were merely "hidden away" on
Groomes's computer; instead, they were
"sought out, bookmarked, downloaded,
saved, clicked on, viewed, and shared." Thus,
there was no question that Groomes
possessed and viewed the images.

when the argument of double jeopardy is not
raised below, the appellate court cannot
consider that argument on direct appeal).
Affirmed.
Gruber, C.J., and Murphy, J., agree.
-------Notes:
The State later nolle prossed ten counts
pursuant to a negotiated plea agreement.
1

We acknowledge that the George opinion
included the statement: "We hold that these
images in appellant's possession constitute
‘sexually explicit conduct[.]’ " 358 Ark. at 282,
189 S.W.3d at 35. However, two sentences
later, the court stated, "Therefore, based upon
our holding in Cummings , supra , we
conclude that there was sufficient evidence
from which the jury could convict appellant of
‘possessing visual or print medium depicting
sexually explicit conduct[.]’ " Id. at 282, 189
S.W.3d at 35–36. Groomes cites the former
statement from George in urging this court to
employ a de novo standard of review rather
than deciding whether the jury had sufficient
reasons to determine that the challenged
images depicted lewd exhibition as it was
instructed to do at trial; however, we remain
convinced that the substantial-evidence
standard is the correct standard.
2

We hold that substantial evidence supports
the finding that Groomes possessed the
twenty images. In addition to the reasons
cited by the State, we note that according to
Cone's testimony, a folder is not created
within AppData unless and until a user
interacts with a folder or file. That means the
AppData files on Groomes's computer were
not created in a vacuum but instead were the
result of his actions of viewing, playing,
downloading, or searching for sexually
explicit images involving children.
III. Constitutional Arguments

-------Finally, Groomes contends that his
convictions violate constitutional prohibitions
on double jeopardy and cruel and unusual
punishment. However, neither of these
arguments was presented to the circuit court
below, so we need not address them. See
Brown v. State , 374 Ark. 324, 287 S.W.3d
587 (2008) (holding that an Eighth
Amendment argument is not preserved for
appellate review when appellant did not
present an objection to his sentence to the
circuit court); State v. Montague , 341 Ark.
144, 14 S.W.3d 867 (2000) (holding that
-6-

A 19

United States Constitution, Amendment I:
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to petition the Government for a
redress of grievances.

A 20

